GR-80-98-013
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Commerce City Police Department
Commerce City, Colorado
GR-80-98-013
March 31, 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Commerce City Police Department, Commerce City,
Colorado. The Commerce City Police Department received grants of $75,000 to hire or rehire
one sworn police officer under the Funding Accelerated for Smaller Towns (FAST) program,
and $450,000 to hire or rehire six additional police officers under the Universal Hiring
Program (UHP). In addition, the Commerce City Police Department received $51,187 to
redeploy 3.6 officers under the Making Officer Redeployment Effective (MORE) program. The
purpose of the additional officers is to enhance community policing efforts.
Due to the lack of community policing, we are questioning $91,748 under the FAST/UHP
grant, which was the amount of funds received by the Commerce City Police Department at
the time of our audit. In addition, the remaining $433,252 in FAST/UHP grant funds should
be withheld as funds to better use until the Commerce City Police Department establishes a
community policing program. Further, based on the absence of an officer redeployment
tracking system, we are questioning the entire $51,187 MORE grant awarded to the Commerce
City Police Department, of which $8,488 was awarded in excess of the allowable federal
share. 


We found the following weaknesses with regard to meeting grant conditions: 
- The Commerce City Police Department has not implemented a community policing program.
    The Police Department has hired all seven officers funded under COPS; however, no officers
    were performing community policing duties at the time of our audit.
- The Commerce City Police Department received $8,488 in excess of the allowable
    federal share for the MORE grant.
- The Commerce City Police Department did not track the redeployment of officers
    awarded under the MORE grant. 
- A good faith effort had not been made to retain the seven police officer positions
    upon the expiration of the FAST/UHP grant.
- The Commerce City Police Department did not submit the required Departmental Initial
    Report. Further, the Officer Progress Reports and Annual Department Report were not
    submitted timely to the COPS office. 


 
#####